JEFFREY A. ROSEN, ACTING ATTORNEY GENERAL., ET AL.,
V.
CITY AND COUNTY OF SAN FRANCISCO, ET AL.
U.S. SUPREME COURT DOCKET NO. 20-666
Service List
Attorneys for Petitioners:
Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Jeffrey Bossert Clark
Acting Assistant Attorney General
Edwin S. Kneedler
Deputy Solicitor General
Sopan Joshi
Senior Counsel to the Assistant Attorney General
Jonathan C. Bond
Assistant To The Solicitor General
Mark B. Stern
Daniel Tenny
Laura Myron
Brad Hinshelwood
Attorneys
DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
Email: SupremeCtBriefs@usdoj.gov
Telephone: (202) 511-2217
Attorneys for Respondents:
Joshua A. Klein
Deputy Solicitor General for the State of California
California Department of Justice – Office of the Solicitor General
1515 Clay Street, Suite 2000
Oakland, CA 94612-1413
Email: joshua.klein@doj.ca.gov
Telephone: (510) 879-0756
Party Name: State of California ex rel. Xavier Becerra, Attorney General

